March 31, 2009

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Audit Report – National Leased Facility Maintenance Responsibility
         (Report Number SA-AR-09-003)

This report presents the results of our national audit of Leased Facility Maintenance
Responsibility (Project Number 08YG032SA000). This nationwide audit was conducted
to determine if the U.S. Postal Service is incurring costs for maintenance and repairs at
leased facilities for which the lessor is responsible. We conducted this self-initiated
audit based on operational risks we identified during the Leased Facility Maintenance
Responsibility audit in the Great Lakes Area. See Appendix A for additional information
about this audit.

Conclusion

We determined the Postal Service is incurring costs for maintenance and repairs at
leased facilities for which the lessor is responsible. Specifically, the Postal Service does
not have an effective national process for recouping lessor-responsible maintenance
and repair costs incurred by the Postal Service. As a result, the Postal Service was not
reimbursed for some of the maintenance and repair work they performed at leased
facilities. We were unable to determine the actual number and dollar value of lessor-
responsible repairs the Postal Service paid for because of the Facilities Single Source
Provider (FSSP) system’s inability to identify repairs that are the lessor’s responsibility.

The Postal Service implemented a new Landlord Maintenance Module (LMM) in the
FSSP system in May 2008 to improve the consistency and accuracy of the lessor
enforcement process. However, 11 of the 19 lessor-responsible sample items we
reviewed in the LMM were not reimbursed.1

Reimbursement for Lessor Responsible Repairs

In our sample of 519 maintenance and repair projects, the Postal Service completed
86 projects that were the lessor’s responsibility. The Postal Service did not collect
reimbursements totaling $106,439 for 64 of the 86 projects.




1
 The LMM was implemented in May 2008, and the audit team tested 127 repair projects in the LMM for the period
May through July 2008.
National Leased Facility Maintenance Responsibility                                                 SA-AR-09-003




This occurred because Facilities Management did not ensure personnel followed
established policies and procedures to adequately identify, track, and recoup costs
incurred by the Postal Service for performing maintenance and repairs that are the
lessor’s responsibility.

Based on the results of this audit, we project that the Postal Service paid at least
$916,694 for maintenance and repairs that were the lessor’s responsibility. We are
reporting this monetary impact as follows.

           •    $505,379 in questioned costs2 – lessor-responsible repairs the Postal Service
                performed but for which it did not receive reimbursement.
           •    $411,315 in assets at risk3 – lessor-responsible repairs the Postal Service
                performed for which it received reimbursement.

In addition, we are reporting $15,559 in questioned costs based on our judgmental
sample of maintenance and repairs for fiscal year (FY) 2008.

See Appendix B for our detailed analysis of this topic and Appendix C for our calculation
of monetary impact.

We recommend the Vice President, Facilities:

1. Establish and implement controls to ensure Postal Service personnel are aware of
   and follow existing written policies and procedures for lessor maintenance and
   repairs.

2. Instruct the Facilities Service Offices to seek reimbursement for questioned costs
   identified during the audit as follows:
       • Eastern Facilities Service Office – $17,836
       • Northeast Facilities Service Office – $32,202
       • Pacific Facilities Service Office – $56,401

3. Instruct the Facilities Service Offices to review fiscal year 2006 and 2007 data to
   identify any other uncollected repair expenses and seek reimbursement for any
   uncollected funds expended by the Postal Service.

Management’s Comments

Management did not specifically state whether they agreed or disagreed with the
findings. Management agreed with recommendation 1 and stated that corrective
actions are currently in place. They stated that the LMM requires Facilities personnel to

2
    Costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
3
    Assets or accountable items that are at risk of loss because of inadequate internal controls.




                                                             2
National Leased Facility Maintenance Responsibility                                         SA-AR-09-003



address landlord maintenance responsibility before action can be taken on a problem at
a leased facility. Management also stated that within the LMM, they track work
accomplished by the Postal Service; and the module contains all of the data required to
initiate the collection process and track the method and amount of the reimbursement.

Management agreed with recommendation 2 and stated they will pursue reimbursement
for questioned costs that are deemed to be recoverable by the end of this FY. The
Postal Service has already collected $2,909 and identified $32,428 as unrecoverable
due to erroneous lease interpretation and Postal Service responsibility. The remaining
amount is currently being pursued.

Management did not state whether they agreed with recommendation 3. Management
stated it would be extremely difficult to identify all 2006 and 2007 landlord maintenance
projects to determine whether reimbursement should have been pursued. Management
stated the expense of this effort would probably offset the landlord maintenance
reimbursements. See Appendix D for management’s comments, in their entirety.

Evaluation of Management Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management's
comments responsive to recommendations 1 and 2 and management’s corrective
actions taken should resolve the issues identified in the report.

While we understand there would be expenses associated with reviewing the FY 2006
and 2007 data, we believe the review could result in monetary benefits to the Postal
Service, and they should assess the feasibility of performing this review. However, we
will not pursue audit resolution regarding recommendation 3.

In addition, management expressed concern with the projected amounts of $505,379 in
questioned costs and the $411,315 in assets at risk, but did agree that there were
shortcomings in following proper procedures. Because field offices did not follow proper
procedures, we will report the $520,9384 in questioned costs and $411,315 in assets at
risk in our Semiannual Report to Congress.

The OIG considers recommendations 1 and 2 significant, and therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that they can be closed.



4
  $505,379 in questioned costs – lessor-responsible repairs the Postal Service performed but for which it did not
receive reimbursement, and $411,315 in assets at risk – lessor-responsible repairs the Postal Service performed for
which it received reimbursement.




                                                         3
National Leased Facility Maintenance Responsibility                  SA-AR-09-003



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: William Galligan
    Tom Russell
    Henry (Hank) Burmeister
    Kayode Kadara
    Katherine S. Banks




                                                      4
National Leased Facility Maintenance Responsibility                                         SA-AR-09-003



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Facilities is an enabling organization within the Postal Service whose primary mission is
to (1) provide quality real estate and facilities products and services to meet present and
future needs of Postal Service organizations and (2) realize optimum value from
facilities assets and transactions. Facilities is headquartered in Arlington, VA, and has
eight Facilities Service Offices (FSOs) throughout the country.

Lease management occurs at the FSO level, and duties include monitoring and
enforcing lease provisions; acting as liaison for lessors on improvement projects; and
providing support to postmasters and installation heads when issues occur concerning
the maintenance of leased facilities.

Administrative Support Manual, Chapter 13, Section 5, explains that leases or rental
agreements specify the lessor’s obligations for maintenance and repairs. Typically, the
agreements require the owners to keep the premises and all the equipment they furnish
in good tenantable condition, except when a Postal Service agent or employee causes
damage.

The maintenance rider in Postal Service leases states that if the lessor does not make
the repairs within the timeframe the Postal Service stipulates (provided it is a
reasonable timeframe) the Postal Service can perform the work by contract or otherwise
and withhold the cost of such work (which may include administrative costs and interest)
from payments due.

Maintenance Series-1105 states that the Real Estate Department of the FSO should be
familiar with lease provisions and understand the respective responsibilities of the
Postal Service and lessor to ensure that Postal Service money is not spent on work that
is the lessor’s responsibility. In addition, the Contracting Officer at the FSO makes the
final decision on whether the repair costs the Postal Service incurs for repairs the lessor
was responsible for will be deducted from future rents due the lessor.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine if the Postal Service incurred costs for
maintenance and repairs at leased facilities for which the lessor was responsible. To
accomplish our objective, we reviewed documentation and applicable policies and
procedures and examined other relevant material. We also visited Postal Service
facilities and interviewed managers and employees. The scope of our audit was
maintenance and repairs to leased facilities paid for by the Postal Service during


5
    Maintenance Series (MS)-110, Associate Office Postmasters Facility Maintenance Guidelines.




                                                          5
National Leased Facility Maintenance Responsibility                  SA-AR-09-003



FYs 2006 and 2007, and during the period May 5 – July 31, 2008, for which the lessor is
responsible.

We conducted this performance audit from September 2008 through March 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on February 11, 2009, and
included their comments where appropriate. We used computer-generated data from
Postal Service systems such as FSSP and data provided by the OIG Computer
Assisted Assessment Techniques staff to obtain our sample items. We verified the
items with documentation provided by the FSO and are not aware of any limitations in
the reliability of computer-generated data supporting the audit findings.




                                                      6
    National Leased Facility Maintenance Responsibility                           SA-AR-09-003




    PRIOR AUDIT COVERAGE

                         Report           Final Report        Monetary
  Report Title                                                                   Report Results
                         Number               Date             Impact
Leased Facility       SA-AR-08-008         July 23, 2008      $117,111   The Postal Service incurred costs
Maintenance                                                              for maintaining leased facilities for
Responsibility in                                                        which the lessor was responsible.
the Great Lakes                                                          Additionally, the Great Lakes FSO
Area                                                                     did not pursue reimbursement for
                                                                         many maintenance and repair
                                                                         costs that were the lessor’s
                                                                         responsibility. The OIG
                                                                         recommended that the Postal
                                                                         Service strengthen its policies and
                                                                         procedures to ensure tracking and
                                                                         reimbursement of expenses it
                                                                         incurred for performing lessor-
                                                                         responsible maintenance and
                                                                         repairs, and that the Great Lakes
                                                                         FSO collect $62,625 in
                                                                         recoverable costs. Postal Service
                                                                         management agreed with the
                                                                         findings and recommendations.
Postal Service        CA-AR-07-003         May 14, 2007        $22,396   The report identified accounting
Facilities                                                               issues, including two leased
Maintenance and                                                          facility repair expenses that the
Repair Costs                                                             Postal Service did not recoup from
                                                                         the lessor through rental
                                                                         deductions. The OIG made three
                                                                         recommendations to improve
                                                                         maintenance, repair, and
                                                                         alteration procedures, and
                                                                         management concurred with the
                                                                         findings and recommendations.




                                                          7
National Leased Facility Maintenance Responsibility                                           SA-AR-09-003



                                 APPENDIX B: DETAILED ANALYSIS

Reimbursement for Lessor Responsible Repairs

The Postal Service did not pursue reimbursement for several maintenance and repair
costs that were the lessor’s responsibility. In our sample of 519 maintenance and repair
projects,6 the Postal Service completed 86 projects that were the lessor’s responsibility.
The Postal Service did not collect reimbursements totaling $106,439 for 64 of the 86
projects. Examples include:

         •   Thirty-six repair projects were not properly identified as the lessor’s
             responsibility.
         •   The Postal Service performed two repairs that were the lessor’s responsibility
             for health and safety reasons; however, they did not pursue reimbursement
             from the lessor.
         •   Reimbursement is currently in process for seven projects.
         •   The Postal Service did not seek reimbursement for nine repair projects when
             the value exceeded the maximum dollar value set in the maintenance rider of
             the lease as a minor repair.7
         •   The project managers did not forward the paid invoice to the parties
             responsible for collection on two repair projects.
         •   After due diligence by the FSO, two repair projects were determined to be the
             lessor’s responsibility, but the lessor did not receive reimbursement
             notification from the FSO.
         •   The FSO correctly identified two lessor-responsible repairs but did not follow-
             through with collection actions.

Facilities management did not ensure personnel followed established policies and
procedures to adequately identify, track, and recoup costs incurred by the Postal
Service for performing maintenance and repairs that are the lessor’s responsibility.8

Based on the results of this audit, we project that the Postal Service paid at least
$916,694 for maintenance and repairs that were the lesssor’s responsibility. We are
reporting this monetary impact as follows.

    •    $505,379 in questioned costs – lessor-responsible maintenance and repairs the
         Postal Service performed but for which it did not receive reimbursement.



6
  In defining our universe, we incorporated repair projects for sampling based exclusively on repair description and
maintenance responsibility. However, after review of the information provided by the FSO, it was apparent that the
majority of our 519 sample repairs were the Postal Service’s responsibility. The Postal Service does not have a
mechanism in place to accurately identify only those repairs for which the lessor is responsible.
7
  The maintenance rider of the lease states that minor repairs are the Postal Service’s responsibility, with the
threshold typically set at $250 or $500.
8
  We documented the procedures described by each FSO regarding their lessor enforcement process.




                                                          8
National Leased Facility Maintenance Responsibility                    SA-AR-09-003



    •   $411,315 in assets at risk – lessor-responsible maintenance and repairs the
        Postal Service performed for which it received reimbursement. These funds
        should not have been expended because controls are not in place to ensure the
        Postal Service will be reimbursed. We acknowledge that there may be situations
        when the Postal Service must perform lessor-responsible maintenance and
        repairs to address problems that impact the safety and security of employees,
        customers or assets, or due to the lessor’s inaction. However, because
        personnel are not consistently following policies and procedures, when the Postal
        Service expends funds on lessor-responsible maintenance and repairs, there is a
        risk that the funds will not be recouped. As a result, we consider these funds to
        be at risk.

    •   We are also reporting $15,559 in questioned costs based on the judgmental
        sample of maintenance and repairs we reviewed for FY 2008.




                                                      9
National Leased Facility Maintenance Responsibility                                       SA-AR-09-003



               APPENDIX C: QUESTIONED COSTS AND ASSETS AT RISK

Based on projection of the sample results, we are 95 percent confident that the Postal
Service paid at least $916,6949 for maintenance and repairs that were the responsibility
of the lessor; actual uncollected costs were at least $505,379, and assets at risk were at
least $411,315.

                               Statistical Projection Data                                 
     Total Universe Value – value of all FSSP projects completed during FYs
     2006 and 2007 used to project the monetary benefits.                                     $8,927,445


                                          MONETARY BENEFITS
     Questioned Costs – projected repair costs that were not recouped from
     the lessor during FYs 2006 and 2007.                                                       $505,379

     Recoverable Questioned Costs – repair costs that were not recouped
     from the lessor during FY 2008, identified in our sample.                                     15,559

                           TOTAL MONETARY BENEFITS                                              $520,938


                                      NON-MONETARY BENEFITS
     Assets at Risk – projected maintenance and repair costs that the Postal
     Service performed and received reimbursement for during FYs 2006 and
     2007. However, the Postal Service should not have expended funds for
     those repairs, since they do not have controls in place to ensure they will be
     recouped. Personnel do not consistently follow policies and procedures for                 $411,315
     recouping these funds, therefore, reimbursement is not guaranteed and we
     consider those funds to be at risk.




9
  This amount does not include the $15,559 because FY 2008 (May 5 through July 31) was not included in the
statistical sample and was not used for projection purposes.




                                                       10
National Leased Facility Maintenance Responsibility         SA-AR-09-003



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                      11
National Leased Facility Maintenance Responsibility        SA-AR-09-003




                                                      12
National Leased Facility Maintenance Responsibility        SA-AR-09-003




                                                      13
